No. 20-1113

 

 

IN THE
Supreme Court of the United States

AMERICAN HOSPITAL ASSOCIATION, ET AL.,

Petitioners,
Vv.

NORRIS COCHRAN, IN HIS OFFICIAL CAPACITY AS
ACTING SECRETARY OF HEALTH AND HUMAN SERVICES,

Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the District of Columbia Circuit

BRIEF OF AMICI CURIAE 33 STATE AND
REGIONAL HOSPITAL ASSOCIATIONS
IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,765 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 23, 2021.

 

Wilson-Epes Printing Co., Inc.
